<html>
<title> - PRESERVING AN OPEN INTERNET: RULES TO PROMOTE COMPETITION AND PROTECT MAIN STREET CONSUMERS</title>
<body><pre>[Senate Hearing 113-843]
[From the U.S. Government Publishing Office]












                                                        S. Hrg. 113-843

                      PRESERVING AN OPEN INTERNET:
                      RULES TO PROMOTE COMPETITION
                   AND PROTECT MAIN STREET CONSUMERS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 1, 2014

                               __________

                          BURLINGTON, VERMONT

                               __________

                           Serial No. J-113-68

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                              

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-961 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                        JULY 1, 2014, 10:07 A.M.

                     STATEMENT OF COMMITTEE MEMBER

                                                                   Page
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1

                   STATEMENT OF CONGRESSIONAL MEMBER

Welch, Hon. Peter, a Representative in Congress from the State of 
  Vermont........................................................     3

                               WITNESSES

Witness List.....................................................    21
Copps, Hon. Michael, Former Commissioner, Federal Communications 
  Commission, Special Adviser to the Media and Democracy Reform 
  Initiative, Common Cause, Washington, DC.......................     4
    prepared statement...........................................    22
Groeneveld, Lisa, Chief Operating Officer and Co-Owner, Logic 
  Supply, Inc., South Burlington, Vermont........................    12
    prepared statement...........................................    35
Orton, Cabot, Proprietor, The Vermont Country Store, Manchester 
  Center, Vermont................................................     9
    prepared statement...........................................    32
Reid, Martha, State Librarian, State of Vermont, Department of 
  Libraries, Montpelier, Vermont.................................     7
    prepared statement...........................................    28

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Heritage Foundation, The, James L. Gattuso, Senior Research 
  Fellow in Regulatory Policy, statement.........................    38
Vermont Realtors, Donna Cusson, 2014 President, June 30, 2014, 
  letter.........................................................    37

 
                      PRESERVING AN OPEN INTERNET:
                      RULES TO PROMOTE COMPETITION
                   AND PROTECT MAIN STREET CONSUMERS

                              ----------                              


                         TUESDAY, JULY 1, 2014,

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., at 
Davis Center at the University of Vermont, 590 Main Street, 
Burlington, Vermont, Hon. Patrick J. Leahy, Chairman of the 
Committee, presiding.
    Present: Senator Leahy.
    Also Present: Representative Welch.

          OPENING STATEMENT OF HON. PATRICK J. LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Chairman Leahy. Good morning, everybody. I was telling some 
of the staff from Washington who had come up for this hearing 
that I am sure they are happy to come up to nice cool weather 
and get out of Washington and suddenly realized that it is 
almost as hot here, but it is nicer. The air is clearer.
    As somebody once came up from Washington with me from 
Department of Agriculture and was sitting on the front lawn of 
my home in Middlesex, where Congressman Welch has been before, 
and beautiful, clear day and look out across the mountains and 
I said, ``Isn't this nice?'' He said, ``Nope.'' I said, ``What 
do you mean?'' He said, ``I don't like it.'' I said, ``What's 
the matter?'' He said, ``I don't like air I can't see.''
    [Laughter.]
    Chairman Leahy. So we are different in Vermont. But this is 
a great week in Vermont and all across the country. It is so 
nice for us all to be home and I know that Congressman Welch 
and Senator Sanders and I look forward to this. We are going to 
gather with friends and families, we will be at barbecues and 
parades and parties, celebrating the vision our founders put in 
motion over 200 years ago.
    Americans and especially we Vermonters hold these core 
freedoms dear to us that were established all those years ago. 
But I have always felt, and I was brought up in a family where 
this was true, that chief among these freedoms are free 
expression and a free and open marketplace where competition 
would drive innovation.
    Now, in the 21st century, these freedoms have been enhanced 
by one of the greatest tools ever created--the Internet. It has 
flourished into a central force in so many of our lives, 
because it does reflect the founders' vision. It is founded on 
the principles of openness and competition.
    It has been the ultimate marketplace of ideas. Everybody 
has a voice, and products or services will succeed or fail 
based on their merits. It is a great success story.
    It is also a great gift to the world. Think of what it has 
done and its potential to spread freedom and democracy to every 
corner of the globe, and more and more totalitarian governments 
have found that they cannot silence voices. While they can 
close off one aspect of the Internet, it will open up somewhere 
else.
    But our country is protected by a Bill of Rights that 
guarantees that basic freedom. I think the Internet needs basic 
rules of the road to ensure that it remains open. I think open 
Internet principles are the Bill of Rights for the online 
world.
    I know many of you, I have talked to you in the past, you 
shared my dismay when the D.C. Court of Appeals struck down the 
Federal Communication Commission's 2010 open Internet rules. 
Those rules represent a basic level of protection for consumers 
online and in light of the court's decision, the FCC is now 
considering how to restore open Internet protections.
    The debate that is happening today in Washington over net 
neutrality is critically important, but it should not be just 
in Washington. The reason I am holding this hearing here, this 
will become part of the record for the Senate Judiciary 
Committee in Washington. A lot of you could not come to 
Washington to take part in it, but you can be here and your 
voices will be heard.
    The outcome of the debate is going to have a huge effect on 
small businesses, community institutions, and consumers. So it 
is crucial that we get this right.
    I do not want to see an Internet that is divided into the 
haves and the have-nots. I do not want to see an Internet where 
those who can afford to pay can muffle the voices of those who 
cannot. An online world that is split into fast lanes and slow 
lanes, where pay-to-play deals dictate who can reach consumers, 
is contrary to every single principle that I felt the Internet 
was based on.
    Last month I joined with Congresswoman Doris Matsui of 
California, a senior Member of the House, introducing 
legislation requiring the FCC to ban pay-to-play deals online. 
I am not going to endorse any effort to do otherwise, and your 
voices should be so heard.
    I have heard from thousands of Vermonters. Our little State 
has spoken very clearly and you have not minced words. I am 
delighted that you do not want to see the Internet dominated by 
a few large corporations.
    We have an excellent panel of witnesses who are going to 
testify firsthand, whether you are an expert like Commissioner 
Copps--and we were talking about how we spent time together on 
a trip with Hubert Humphrey and Fritz Hollings and Hugh Scott, 
the Republican Leader, and others where I got to celebrate my 
35th birthday--or you are an operator of a small business like 
Mr. Orton and Ms. Groeneveld, or a librarian like Ms. Reid, who 
knows how I care a great deal about libraries. It touches all 
of you.
    So I am also especially pleased that Congressman Welch is 
joining me here today and Haley Pero from Senator Sanders' 
office is in the audience.
    Peter, why don't I yield to you for any comments you might 
want to make and then we will start with Mr. Copps?

        STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE
             IN CONGRESS FROM THE STATE OF VERMONT

    Representative Welch. Thank you very much, Senator Leahy.
    By the way, thanks so much for introducing that legislation 
and you got it out right after that court decision, and I think 
you gave a lot of people hope that we are going to keep the 
Internet open and accessible.
    One of the interests that I have is representing a rural 
State, there is an enormous economic, absolute urgency to us 
having an open Internet. Senator Leahy spoke about the First 
Amendment rights and access and we all share that urgency, but 
in a rural State--and by the way, I serve on the Energy and 
Commerce Committee that has jurisdiction over this and I 
created a rural caucus--there are 10 Republicans and 10 
Democrats--because a lot of us--even though there are enormous 
divisions on ideology between the parties down in Washington, 
there is a lot of common interest from those of us who 
represent rural areas.
    We are not going to have an economy in Vermont if we do not 
have an accessible Internet. We have got entrepreneurs here and 
we have got a couple in the audience who have shown what can be 
done in a small state far removed from markets if they have 
access to the quality tools that are necessary to put their 
creative energies to work and also tap into the real skills and 
talents that people in a rural state have.
    So I see this as absolutely essential to the future of 
Vermont's economy, as well as rural America, and I happen to 
think rural America is a pretty good place.
    So that is another reason, Senator Leahy, I think this 
hearing is so timely. We have got folks here on the front lines 
whose access to the Internet is crucial to the jobs that they 
have created, the good jobs that we have in Vermont.
    So I look forward to their testimony and I look forward to 
working with you and Representative Matsui and try to make 
certain we keep this open.
    Chairman Leahy. I know how important it is. At our 
farmhouse in Middlesex, we live on a dead-end dirt road, but I 
can also sit there and be communicating with my office in 
Washington and I can be reading the Irish Times in Dublin. I 
just happen to mention that.
    Representative Welch. That is the paper of record in the 
Leahy household.
    [Laughter.]
    Chairman Leahy. So Michael Copps served as a member of the 
Federal Communications Commission from 2001 to 2011. He 
currently is Special Adviser to the Media and Democracy Reform 
Initiative of Common Cause. We first met when he was Chief of 
Staff to Senator Fritz Hollings, one of my mentors in the 
Senate, and then Assistant Secretary of Commerce. He also 
serves on the Board of Directors of Free Press and Public 
Knowledge.
    Mr. Copps, please go ahead.

 STATEMENT OF HON. MICHAEL COPPS, FORMER COMMISSIONER, FEDERAL 
  COMMUNICATIONS COMMISSION, SPECIAL ADVISER TO THE MEDIA AND 
   DEMOCRACY REFORM INITIATIVE, COMMON CAUSE, WASHINGTON, DC

    Mr. Copps. Chairman Leahy, Congressman Welch, good morning, 
and thank you, Mr. Chairman, for the invitation to address this 
hearing on the crucial issue of how to guarantee an open 
Internet.
    Traveling outside of the Washington, DC, Beltway to hear 
from citizens who must live with the policies that are crafted 
in Washington, DC, is essential. I made it my priority to do 
that when I served as a Commissioner at the FCC. I wish the 
Presidency would do the same thing and come to Vermont on this 
issue.
    And I especially commend you, Mr. Chairman, for introducing 
that bill on keeping the Internet open by introducing 
legislation to prevent paid prioritization on the Internet.
    More and more people now understand that the Internet is 
the most opportunity-creating tool of our time. It is 
increasingly the door to jobs, education, health care, equal 
opportunity, and to the news and information that we need to 
sustain our civic dialogue.
    But the question now is opportunity for whom. Is the Net 
going to be the tool of the many that helps us all live better 
or will it become the playground of the privileged few that 
only widens the many divides that are creating stratified and 
unequal Americans?
    Are we heading toward an online future with fast lanes for 
the 1 percent and slow lanes for the 99 percent?
    Well, it is decision time and it is decision time now, 
because the Federal Communications Commission is considering 
rules that would permit giant Internet service providers like 
Comcast, Verizon and AT&T to create fast lanes for their 
business partners and friends who can afford to pay what will 
inevitably be very heavy freight while startups and innovators 
and potential competitors are priced off the express lane.
    The fate of the Internet will be decided in the next few 
months and what is decided in those few months might be very, 
very difficult or impossible to undo. So this is the time now 
for concerned citizens to be speaking out.
    When gatekeeper control partitions the Internet, everyone 
other than the gatekeeper suffers. Consider what a tremendous 
engine the Internet could be for small business growth. You 
know that right here in Vermont, we have got Vermont Country 
Store who is going to testify this morning, we have all heard 
about Potlicker Kitchen and the delicious and delectable jams 
and jellies they sell online.
    Expensive fast lanes for the few could really jeopardize 
and ruin the entrepreneurial opportunities that companies like 
this have developed for themselves.
    Extend that across the country and you begin to see the 
enormous economic opportunity costs that gatekeeping entails.
    The same gatekeeping forces will be able to throttle 
innovation in other areas by foreclosing new developments, for 
example, in distance learning that would grant rural schools of 
Vermont's Northeast Kingdom access to state-of-the-art lectures 
from the university here in Burlington.
    We cannot build thousands of new needed businesses, we 
cannot have top-notch education for our kids, we cannot get 
America out of the economic rut it is in when the one tool that 
can help make it all happen is controlled by a handful of 
communications and media giants whose main concern is the 
bottom line of the company's quarterly report.
    How did we get here? For openness, public policy has too 
often worked against the Internet. First, we witnessed years of 
telecommunications and media consolidation, wherein a few giant 
companies gobbled up small competitors and built monopoly 
markets across the Nation. They wielded armies of lobbyists and 
wheelbarrows filled with money to win government approval of 
these mergers and acquisitions, and the FCC almost always 
acquiesced.
    Second, the FCC consciously decided against meaningful 
public oversight of broadband and the Internet. In one of the 
strangest decisions ever made by a Federal agency, the 
Commission decided over a decade ago that the broadband 
infrastructure on which the Internet rides was not 
communications at all and was there outside all the consumer 
protections and common carriage requirements that are integral 
parts of the traditional telephone service that we all grew up 
with.
    Those protections were part of Title 2 of the 
Telecommunications Act, where they refused to put broadband, 
but that is where broadband telecommunications belongs and 
until the FCC puts them there, clearly and strongly, we are not 
going to have an open Internet.
    Title 2 classification is the prerequisite of an open 
Internet. It is the essential first step--it is not the 
guarantor of Internet freedom, it is the first step. There is 
no clever other new way to get this done might the FCC 
contemplate all sorts of new and novel ways.
    Once we classify broadband, then we have to go on from 
there to deal with other challenges to the open Internet, such 
as the interconnection and peering arrangements that determine 
how content accesses and gets distributed across the Net, 
because discrimination and blocking can take place upstream 
just as easily as in that last mile between the Internet 
service provider and your house, and I do not think consumers 
really care too much where that discrimination occurs. If it 
occurs, it costs them.
    Then, of course, and this goes back to my passion at the 
FCC, we have to find our way back to a more competitive 
broadband environment by saying no to the endless torrent of 
mergers and acquisitions that is distorting not just our 
communications, but our democracy. These combinations are a 
major reason why your country and mine has gone from broadband 
leader 15 years ago to broadband laggard today, number 15 in 
the world, according to the OECD. Some other rankings that 
measure different things like speed and price have us in the 
20s and 30s, the 40s. I saw one the other day, 55th.
    And now these telecom titans are proposing more mergers to 
further stifle competition, ration their broadband, and extract 
monopoly rents from consumers.
    In the end, this all comes back to democracy. Free 
expression and democratic engagement suffer in a gated 
Internet. Consigning alternative, nonprofit and dissenting 
voices to slow lanes makes it harder for users to access 
different kinds of information.
    Moreover, since we now use broadband to both consume and 
produce, paid prioritization schemes hinder the ability of 
citizens to speak out and really have their voices heard.
    An Internet controlled and managed for the benefit of the 
haves discriminates against our rights not just as consumers, 
but more importantly, as citizens. Allowing powerful ISPs or 
giant Internet companies to control what we see and share on 
the Internet is inimical to the health of our Nation.
    If an ISP can slow down or block those sites who refuse to 
play the game, if they can decide that some good cause or 
advocacy group they disagree with should be voted off the Net, 
then we have starved the nourishing potential of this 
technology and truncated the rights of citizens to share in a 
communications revolution that should be more about we the 
people than it is the privileged few.
    I want an Internet where B.T. Digger and its deep dive 
investigative journalism can get to me just as quickly as some 
huge corporation's info team and Babble.
    Yes, I feel strongly about this.
    [Applause]
    Chairman Leahy. I think that comes through. Go ahead.
    Mr. Copps. And that is why I am criss-crossing the country 
on behalf of Common Cause and our allies in the public interest 
community to encourage citizens to speak up now to demand that 
the FCC ensure real Internet freedom.
    Millions have done so already, but millions more are needed 
for the battle.
    Whose Internet is it anyway and whose democracy is it?
    Thank you, Mr. Chairman, and I look forward to your 
comments, and Representative King, and your questions.
    [The prepared statement of Hon. Michael Copps appears as a 
submission for the record.]
    Chairman Leahy. Thank you. What we are going to do is have 
each of the witnesses testify and then Congressman Welch and I 
will ask questions.
    Martha Reid is the State Librarian of Vermont, a position 
she has held since 2008. She has heard me say how I had my 
first library card at the Kellogg Hubbard Library in Montpelier 
when I was 4 years old and I think the world of libraries and 
librarians.
    In her role, she focuses on library technology and the 
expansion of broadband for public libraries, something we would 
not have had any concept of when I had that library card. But 
she has spent more than 30 years working at public libraries.
    She is President of the Vermont Public Library Foundation, 
is a member of the Executive Board, Chief Officers of State 
Library Agencies.
    Ms. Reid, we are delighted you could be here. Please, go 
ahead.

    STATEMENT OF MS. MARTHA REID, STATE LIBRARIAN, STATE OF 
     VERMONT, DEPARTMENT OF LIBRARIES, MONTPELIER, VERMONT

    Ms. Reid. It is a privilege to be here and hearing your 
remarks, we are in Common Cause.
    Thank you for inviting me to testify today and recognizing 
that libraries are partners of small business and 
entrepreneurs, particularly in rural areas in Vermont and 
across the country.
    I am joined today in this room by members of the Vermont 
library community--they are sitting here in the front row--from 
our academic, school and public libraries. We are united in our 
belief that an open Internet is essential to our Nation's 
freedom of speech, educational achievement, economic vitality, 
and equal access to information.
    An open Internet is fundamental for libraries to fulfill 
their mission to provide students, teachers and faculty and the 
general public, citizens of all ages and background equal 
access to information and to the wide variety of opportunities 
and resources made available via the Internet.
    It has always been and it remains today a core value of 
libraries to preserve the free flow of information. 
Intellectual freedom, the right of citizens to have access to 
information, and that includes information that may be 
controversial, is a hallmark of our democracy, and of 
libraries.
    Currently, the Internet is freely and equitably accessible 
to all and it needs to stay that way.
    Vermont is a state of small rural communities. We have 183 
public libraries, more libraries per capita than any other 
state. Public libraries are often the only place in town to 
offer free Internet access and they are the go-to places for 
jobseekers, independent learners, researchers, and local 
entrepreneurs.
    Nearly all public libraries in this country offer free 
Internet access and public wi-fi.
    In Vermont, citizens can use their personal public library 
card to log on from any computer device to the statewide 
Vermont online library, a collection of licensed, subscription-
based resources, including full text articles from magazines 
and newspapers, I think including the Dublin Times, health 
information, and online tools for creating resumes and business 
plans, and all Vermonters have access via their library card to 
over 500 online classes in a program called Universal Class, 
self-paced learning with live remote instructors on topics that 
range from digital photography and knitting to astronomy, 
bookkeeping and business writing.
    Our libraries provide this no-fee access, leveling the 
playing field for citizens and entrepreneurs who need these 
learning and training opportunities.
    Technologies now permit our libraries and individuals to 
create and disseminate their own information online. We are not 
just providers or consumers of information, but we are creators 
as well. This is another aspect of the Internet necessitating 
network neutrality so that all voices can be heard and that the 
benefits of the Internet can be realized by all, not just those 
who can pay.
    In Vermont, 53 public libraries have high-speed fiber 
broadband thanks to a Federal BTOP grant. In Readsboro, with a 
population of 814, a local entrepreneur with a home-based 
business has started doing his work at the public library 
because the fiber connection is so fast and efficient.
    National studies show that citizens often choose to use 
public library Internet and wi-fi even if they have it at home.
    And in the past year, 14 Vermont public libraries--and I 
would like to note that the Kellogg Hubbard and the Hartland 
Public Library are among those 14--have launched free community 
videoconferencing. These libraries have hosted no-fee online 
distance interactive business seminars, distance job interviews 
for individuals, and online meetings and trainings.
    This is a Web-based service, so unimpeded Internet access 
is critical.
    Internet resources must be both affordable for libraries 
and freely accessible to those we serve. Without the open 
Internet, there is a danger that libraries will face higher 
service charges for so-called premium online information 
services, and this would, in turn, place limitations on the 
amount or the quality of information that libraries can provide 
to their users.
    There simply cannot be a system of tiered Internet access 
in this country that would set limits on bandwidth or speed 
because of paid prioritized transmission.
    Such a scheme would only increase the gap that already 
exists between the haves and the have-nots and would create 
friction and, in some cases, insurmountable obstacles for 
citizens to get the information they need.
    Bowing to powerful corporate interests that would take 
control of the Internet pipes would put libraries and the 
millions of citizens they serve at risk. Imagine the 
consequences. Libraries would be forced to just turn off access 
to vital information for those who need it most.
    We cannot afford a society where information is available 
to only those who have deep pockets.
    I have spent my entire professional life working in 
libraries to ensure that information resources are freely 
available to all citizens on an equal basis. All Americans, 
including the most disenfranchised citizens, those who would 
have no way to access the Internet without the library, need to 
be able to use Internet resources on an equal footing.
    Here is the bottom line. We need legally enforceable rules 
that will protect the open Internet. I am addressing this to 
all the Senators on the Judiciary Committee. Senators, you have 
an opportunity to do the right thing for America. You have a 
choice--to advance the work of our libraries and other learning 
institutions and to protect citizen access to the Internet or 
to take that right away and to give these opportunities only to 
those citizens or entities which can pay.
    As a representative of the State of Vermont who works with 
libraries statewide and with other state librarians across the 
country and as an American citizen, I expect you, the Members 
of this Committee, to make the decision that is best for all of 
us and which strengthens our country.
    Please champion net neutrality and do all you can to 
support an open Internet. Americans everywhere will thank you 
for your vision and your steadfast defense of our most 
cherished freedoms.
    And I want to thank you, Senator Leahy, for your leadership 
on this issue and your introduction with Congresswoman Matsui 
of the Online Competition and Consumer Choice Act of 2014. It 
takes us in the right direction and I applaud you for your 
stance on supporting the open Internet.
    Thank you.
    [Applause]
    [The prepared statement of Martha Reid appears as a 
submission for the record.]
    Chairman Leahy. Thank you. Both Congressman Welch and I 
want to keep an open Internet. So thank you so much for your 
testimony.
    Cabot Orton is proprietor of the Vermont Country Store, 
which the Orton family has run entirely from Vermont for 
generations. He has heard me tell about coming there as a child 
with my parents. It was a little bit different then. You had a 
small mail order business and you would mail out catalogs, and 
it is a little bit different today.
    Vermont Country Store bills itself as the purveyors of the 
practical and hard-to-find. It has its two retail stores, but 
it has customers all around the world because of its website.
    So, Mr. Orton, please go ahead, sir.

   STATEMENT OF CABOT ORTON, PROPRIETOR, THE VERMONT COUNTRY 
               STORE, MANCHESTER CENTER, VERMONT

    Mr. Orton. Thank you and good morning. Thanks, Senator 
Leahy, for creating a public forum of extraordinary importance 
to discuss a free and equal Internet for businesses of all 
sizes.
    As Vermont business owners, my family and I deeply 
appreciate the opportunity to share our perspective on a vital 
national issue. We are honored by the Senator's invitation to 
support the interests of small companies here in Vermont and 
all across America.
    For over 70 years, our family business, the Vermont Country 
Store, has delighted generations of customers by selling hard-
to-find products through the mail. Following in the footsteps 
of our dad, Lyman, my brothers, Gardner, Eliot and I are the 
third generation of our family to run the business started by 
our grandparents, Vrest and Mildred.
    In the fall of 1945, Vrest printed our very first run of 
catalogs on the printing press in his garage and Mildred mailed 
them out to folks on her Christmas card list.
    The following spring, Vrest opened our now famous retail 
store in Weston. He added the Bryant House Restaurant in 1959, 
a second store in Rockingham in 1968. Today we are known as the 
purveyors of the practical and hard-to-find, delighting 
countless customers of all ages with memories of earlier, 
simpler times.
    For most of our history as storekeepers, we have relied on 
the mail to do business with our customers. Mail was 
affordable, dependable and available on the same terms to 
everyone in America.
    Over 100 years ago, rural free delivery brought mail and 
packages to rural farm families, transforming the U.S. Postal 
Service as an engine of commerce that enabled the fastest 
growth of free enterprise in human history.
    With the later commitment to rural electrification and the 
development of the interstate highway system, a spectacular new 
opportunity was created for every citizen, no matter where they 
lived, and for every business, no matter how prosperous or 
politically connected.
    Contrary to conventional wisdom, these public systems 
worked to the betterment of private enterprise by connecting 
people in unprecedented ways while creating a level playing 
field for all.
    Thanks in no small part to this remarkable infrastructure, 
the Vermont Country Store was able to grow and thrive, all 
while remaining based in the tiny rural village of Weston, 
Vermont.
    To this day, our entire company is based solely here in 
Vermont, from which we answer every call and mail every 
package.
    Between our two stores, our office in Manchester, and our 
distribution center in North Clarendon, every one of our 450 
employees works here in the Green Mountain State.
    Today our business depends dearly on the Internet. We rely 
on the Web to display our merchandise to customers, to connect 
with new audiences, and to transact a large portion of our 
sales.
    Just 10 years ago, we received upwards of 60,000 
handwritten letters a year from customers who would write us 
looking for hard-to-find items or just to share stories and 
memories.
    Chairman Leahy. No wonder you need 450 employees.
    [Laughter.]
    Mr. Orton. It is a lot of reading. Nowadays, most of that 
comes in the form of e-mail and it is largely from customers 
who placed their orders with us over the Internet. We are no 
strangers to technology nor do we wish to escape the forces of 
change. In fact, Internet sales have grown to represent 40 
percent of our business.
    We have all become accustomed to using the Internet for 
just about everything and we take it for granted, just like 
mail, electricity and highways.
    In reality, the Internet, as we know it today, is a recent 
development and it is relied upon universally by companies and 
consumers as a public resource.
    Fully one-third of our employees are involved in supporting 
customer transactions made over the Internet not only because 
it drives sales, but because so many of our customers, young 
and old, use the Internet as their primary means of doing 
business with us.
    Most of our customers still receive catalogs from us in the 
mail. Many of them still place their orders over the phone or 
even on a paper form. But more folks than ever connected with 
us for the very first time on the Internet, never having 
received a catalog at all, apparently unaware we have two 
marvelous stores right here in Vermont.
    We know this demand will only grow over time. If we want to 
continue to prosper as a Vermont-based company, we must keep 
pace with our customers' need and desire to do business with us 
over the Internet.
    Our success depends on providing an exceptional online 
experience our customers enjoy and trust.
    We believe that the new rules proposed by the Federal 
Communications Commission will change all this for the Vermont 
Country Store and for countless small businesses. We do not 
want to imagine an America with two Internets, a fast one for 
giant corporations, a slow one for everybody else.
    We do not want to imagine being held for ransom by telecom 
and cable monopolies just to reach our customers with the same 
speed and convenience as international conglomerates.
    In our view, the proposed FCC rule changes would turn what 
is now a level playing field for businesses of all sizes into 
one where the biggest companies with the deepest pockets can 
get their Website content to customers faster than everyone 
else.
    Worse, we know from our own experience that in the hearts 
and minds of our customers, a slower marginalized Website may 
not exist at all.
    A small business Website that is no longer protected from 
giant Internet tollkeepers would have one choice--pay to play. 
Failing that, a company becomes the proverbial tree falling in 
a forest with no one there to hear it.
    We would be hard-pressed to imagine a freer, more open 
Internet than the one we all depend upon today. You cannot make 
it much more equal than it already is.
    This is why rules creating different standards of Internet 
access would jeopardize that equality. It is not hard to 
imagine small businesses forced to suffer demolition by neglect 
in the Internet slow lane or to endure ruinous costs to squeeze 
into the Internet fast lane with the big guys. That is a lose-
lose proposition that would push small businesses, increasingly 
dependent on the Internet, to close up shop for good.
    If consumer spending represents 70 percent of the American 
economy and two-thirds of our economy consists of small 
businesses that ultimately depend on the Internet, it is not 
much of a stretch to think of the Internet as a vital public 
resource.
    Fair and equal access to the Internet is subsequently 
paramount to the strength of our economy. Perhaps more 
troubling is the prospect of stifling innovation and 
creativity, which are the lifeblood of small businesses in 
Vermont and everywhere in America. My grandparents started the 
Vermont Country Store with a dream, a printing press, and a 
Post Office.
    That fledgling enterprise became vastly more than Vrest and 
Mildred ever anticipated. In so many ways, the Internet has 
transformed our daily lives. It has enabled even the smallest 
home-based businesses to reach virtually unlimited audiences.
    Even the largest Internet companies are a testament to 
magnificent possibilities that would never have materialized 
had the Internet at its inception been subject to the FCC rules 
now being contemplated.
    To safeguard Internet commerce from a troubling future, to 
guarantee that every person with an idea and real perseverance 
has a fair shake at achieving the American dream, we support 
Senator Leahy's legislation.
    When enacted, it will keep the biggest corporations from 
gaming the system and seizing unfair access to Internet fast 
lanes simply because they have the money to buy them.
    This legislation will let small businesses on Main Street, 
USA continue to reach customers anywhere in America on the same 
terms as the Fortune 500, just as we could over the phone and 
through the mail for more than a century.
    Let us be clear. We are not asking for special treatment or 
for incentives or for subsidies. All the small business 
community asks is simply to preserve and protect Internet 
commerce as it exists today, which we think has served all 
businesses remarkably well.
    We all know how change happens--gradually, then suddenly. 
We embrace change wholeheartedly. After all, folks who miss the 
things that change leaves behind tend to be some of our best 
customers. But we also know that disruptive changes like those 
proposed by the FCC almost always have unintended consequences.
    We are asking those who serve us in government to pause, 
consider the repercussions and enact legislation that protects 
the interests of all businesses, great and small. Time and 
again, uniquely American phenomenon of equal access to public 
resources like the Internet has empowered entrepreneurs to 
advance the Nation.
    Just keep the playing field level and let free enterprise 
do what it does best--enrich the human condition.
    [Applause]
    [The prepared statement of Cabot Orton appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Mr. Orton. Thank you 
very much.
    I would note that in Washington, we hold hearings, we have 
to maintain a no applause rule, but I know Congressman Welch 
will not object if I do not use that rule here where we are 
back home in Vermont.
    Representative Welch. No. I notice you are under the table 
clapping.
    [Laughter.]
    Chairman Leahy. He caught me.
    Our next witness is Lisa Groeneveld. She is the co-owner 
and chief operating officer of Logic Supply, a Vermont-based 
designer and manufacturer of industrial computers, that has a 
global customer base.
    I would also note she is a Vermont native, with years of 
experience in the IT industry.
    Ms. Groeneveld, please go ahead, and then we will open it 
up to questions.

 STATEMENT OF MS. LISA GROENEVELD, CHIEF OPERATING OFFICER AND 
    CO-OWNER, LOGIC SUPPLY, INC., SOUTH BURLINGTON, VERMONT

    Ms. Groeneveld. Thank you, Senator Leahy.
    Logic Supply would like to thank the Committee for inviting 
us to testify today, as well as everyone who has taken the time 
to be here today. Thank you all for attending.
    At Logic Supply, we design and manufacture industrial 
computers. Because we market and sell them online, our Website 
serves as the basis for our entire revenue stream, 100 percent 
of our revenue, every penny.
    Our ultra-reliable computers resist dust, heat and 
vibration. They can be found in manufacturing environments, in 
the mining industry, in security and surveillance systems, and 
even in NASA robots.
    Our headquarters are in South Burlington, Vermont and we 
have offices in the Netherlands and Taiwan. We have customers 
on every continent, including Antarctica, and we have been 
business for 11 years.
    We currently have 60 employees worldwide and we continue to 
grow. Over 10 years ago, unlike most business-to-business 
hardware companies, we started our company purely online.
    We knew our customers needed a new way to find, configure 
and purchase their hardware solutions, and the Internet 
provided the easiest, most effective means to do so because it 
was open and fair and equally accessible.
    Our vision has met with substantial success. We have grown 
at a rate of 25 percent per year and we are currently breaking 
ground on a 20,000-square foot addition to our headquarters. 
And over the past year, we have had nearly one million visits 
to our Websites.
    Logic Supply's Internet strategy has been the key to our 
success. It has allowed a small Vermont company to reach global 
markets and become an industry leader serving Fortune 500 
companies and competing against Fortune 500 companies.
    We are here today because we feel that the open and fair 
Internet infrastructure that we have relied on is under threat. 
As Logic Supply's co-owner and COO, I am here to speak out for 
Net neutrality and specifically against paid prioritization, 
also known as fast lanes.
    We are concerned that infrastructure providers are changing 
the rules and abandoning the practices that have allowed Logic 
Supply and many other companies in Vermont and the United 
States to thrive.
    As a company, Logic Supply is informed by our four core 
values--open, fair, independent and innovative. Based on our 
current knowledge of fast lanes, we feel they are neither open 
nor fair, and so we are publicly stating our opposition to them 
today.
    We know the following. Because we are geeks, we know these 
things.
    [Laughter.]
    Ms. Groeneveld. A fast lane will not slow other traffic 
down, but speed is relative.
    Certain traffic will feel slower if other traffic is going 
faster.
    Fast Websites rank higher than slow Websites in search 
engine results, Google, Yahoo, Bing, all of those are search 
engines.
    No one looks past the first page of Google results, no one.
    Customers expect Websites to be fast and efficient. If a 
Website feels slow, again, speed is relative, customers bounce, 
purchases are abandoned, and revenue is lost.
    Given the above, we see fast lanes giving certain players a 
distinct advantage, but an advantage not based on their 
superior product or services, but on their ability or 
willingness to pay.
    Furthermore, established companies like Logic Supply could 
pay to gain access to the fast lane. We certainly could. But 
that does not necessarily make it right. Many early stage 
companies cannot.
    Is that an Internet infrastructure that rewards innovation? 
Paying for fast lanes would mean shifting funds away from 
genuinely value-creating activities like research and 
developing and hiring. It would increase the cost of doing 
business, in our opinion, without any real improvement in 
efficiencies or competitiveness, and no particular value-add to 
our customers.
    Perhaps most importantly, fast lanes seem to fundamentally 
violate two of our core values, open and fair, which is simply 
a level playing field for everyone.
    Without an open and fair Internet based on equal access, 
our business might not even exist today. We started Logic 
Supply with the money in our checking account. We used that 
money to buy motherboards, not preferential treatment for our 
Website traffic.
    In conclusion, we appear today to express our deep interest 
in ensuring an open and fair Internet based on equal access, an 
Internet where all companies and organizations have an 
opportunity to compete on the merit of their products, 
services, knowledge base, and talents.
    We, therefore, support any efforts that prohibit fast 
lanes.
    Thank you.
    [Applause]
    [The prepared statement of Lisa Groeneveld appears as a 
submission for the record.]
    Chairman Leahy. I am struck by the fact that both you and 
Mr. Orton, in so many words, while your companies could afford 
to pay for fast lane, you are opposed to that. You want it to 
be fair to everybody.
    Commissioner Copps, you talked, of course, about fast lanes 
and it is obvious how you feel about them. Do you believe the--
well, we talked about the legislation that Congresswoman Matsui 
and I and others have to prevent this.
    Do you believe the FCC has the authority to ban those kinds 
of agreements, fast lane agreements?
    Mr. Copps. Yes. I do believe the FCC has the authority to 
do that. I think in order to accomplish that, it is going to 
have to find the strongest foundation within the 
telecommunications law upon which to rest that authority. That 
authority, to my mind and many others, exists in Title 2 of the 
Telecommunications Act.
    Without getting in the weeds, and you can get in the weeds 
very quickly on this subject, what happened back in 2002 when 
Chairman Powell was Chairman of the Commission, his majority 
decided that cable modem and, a couple of years later, the 
telephone service, too, was an information service, but not a 
telecommunications service. So they took it out of Title 2.
    Title 2 is where generations of advocates have worked to 
build privacy protections, consumer protections, the assurance 
of reasonably comparable services in rural areas to urban 
areas, to make sure that every American had access to 
telecommunications, and instead they put it in this never never 
land where there was no sound basis.
    When the D.C. Court of Appeals recently upended or refused 
to sanction or approve the FCC's Net neutrality rules, which 
were not all that great in the first place, but at least there 
was something, they said if you are going to try to put these 
consumer protections on things in the broadband, you should 
have put it under Title 2, basically. It was almost an 
invitation.
    Chairman Leahy. But you are saying it can be done.
    Mr. Copps. It can be done and should be done and must be 
done.
    Chairman Leahy. Ms. Reid, you and I have talked about 
libraries before and I think there is no greater thrill than 
watching not only my grandchildren, but young people coming 
into libraries and being exposed to everything that is there, 
far more than we had when I was a kid. I even volunteered one 
day at the reading hour for 4- and 5- and 6-year-olds at the 
Kellogg Hubbard on Saturday morning and got stumped on the 
question, but it was helpful because I was able to pick up my 
phone, call for help, and the door opens, in walked Batman.
    Now, you should have seen the eyes on those children. 
Michael, I will explain that to you later. A lot of the 
Vermonters know where this all came from. Probably the best 
part was he thanked them for their help on the way out and they 
all said, ``You're welcome, Mr. Batman.''
    But you think of rural areas, the town I lived in had 1,600 
people. There are some a lot smaller. You can talk about 
Readsboro and so on.
    Who do you think stands to lose the most if we have a two-
tiered system?
    Ms. Reid. I would say citizens all across the board and 
that is citizens that own small businesses, citizens who have 
ideas about innovation or creating businesses. It is people 
that are involved in instruction, instruction design. It is 
students.
    I think we are all the losers in this. I think we all use 
the term ``level playing field'' and that really says it. I 
think that this value that libraries have had way before the 
Internet ever came into our midst or even into our thoughts, 
the premise remains the same. It is equal access to information 
and to all that the Internet gives us.
    The fact that now we are able to create our own content and 
upload it to the Internet and share it with the world is quite 
astounding that we can do that in a keystroke, and that is, I 
think, a core piece of a healthy economy, of a diverse and 
engaged citizenry.
    So I think we would all be the losers.
    Chairman Leahy. I often walk across the street in 
Washington to the Library of Congress. I love going in there. 
But I also think that if I am using a computer in the Library 
of Congress or if I am using a computer in Readsboro or at the 
Kellogg Hubbard, I can access the same things just as quickly. 
That is worth keeping.
    Ms. Reid. Absolutely.
    Chairman Leahy. Thank you.
    Ms. Reid. It is vital. And I would say--you talked about 
rural areas in Vermont and this is true for rural areas all 
across the country, that is vital to have that speed and 
capacity, and, also, in our urban areas, those little 
neighborhood libraries are also really critical for what 
happens in those communities and neighborhoods.
    Chairman Leahy. Mr. Orton, your e-commerce site, it was 
pretty small when you started. I think you might have wished 
for it to turn out as well as it has, but I think that you 
never really knew at that point that it might become this 
great. Is that a fair statement?
    Mr. Orton. That is a fair statement. It is.
    Chairman Leahy. Now, let me ask you then this follow-up. 
Would you have been handicapped in starting out if it was a 
pay-to-play kind of procedure where large companies could, in 
effect, keep you out because they can afford the extra costs, 
but you might not have been able to at that time?
    Mr. Orton. We would have been unquestionably handicapped. 
At the end of the day, everything we do has to be centered 
around a value proposition to our customers. That is it. If we 
are not doing that, we do not really have a reason to exist.
    And their expectations change faster than we can keep pace 
with because large companies are able to do things and command 
systems that we have to struggle to access. And so none of us 
really operate in a vacuum anymore and if we cannot deliver 
content to our customers every bit as fast and with as much 
convenience as gigantic retailers, they will have very negative 
feelings about our ability to provide them with the service.
    Chairman Leahy. Ms. Groeneveld, you are reaching customers 
all over the world. You understand your business far better 
than I or anybody else here, but would it also be fair to say 
that if even your customers were facing a two-tier system, you 
would be handicapped in carrying out your own business. Is that 
a fair statement?
    Ms. Groeneveld. We would be. As I mentioned during my 
testimony, Logic Supply would absolutely pay to join the fast 
lanes, but we would not do so willingly. It would force us to 
reallocate our investment money and every company only has 
limited funds available for investment away from other real 
value-creating activities.
    Chairman Leahy. But those other companies, too, are going 
to be at a disadvantage.
    Ms. Groeneveld. Our largest competitors are Taiwanese. They 
are $20 billion companies. It would not put them at a 
disadvantage for anything.
    Chairman Leahy. They are not going to be, but new ones 
would be.
    Ms. Groeneveld. Yes. New ones would be.
    Chairman Leahy. But that $20 billion company, you say they 
are willing to play by the same rules if everybody is equal.
    Ms. Groeneveld. They are Taiwanese. They would happily buy 
fast lanes if they could into the United States. It would 
definitely disadvantage smaller companies.
    Chairman Leahy. Thank you.
    Congressman Welch.
    Representative Welch. Thank you, Senator Leahy.
    This is a great panel. I think being able to testify in air 
you cannot see I think is probably better, coming from 
Washington.
    Chairman Leahy. And this is going to be part of the record 
of the Senate Judiciary Committee and I am already thinking, in 
my mind, the summary and report I am going to give to each 
Member of the Judiciary Committee in both parties. And one of 
the advantages of being Chairman, they actually will read it.
    [Laughter.]
    Representative Welch. And we will share that with 
Congresswoman Matsui, with whom I serve on the Telecom 
Subcommittee.
    Mr. Orton, you made an analogy that I thought was so 
terrific. It was about rural free delivery, the rural 
electrification, and interstate highways. These are all public 
goods.
    None of these would have been built without every one of us 
as taxpayers paying for it.
    The case was made against rural free delivery, against 
rural electrification, and, to some extent, against the 
interstate highways, that why are you spending so much money to 
get that last mile of interstate, that last electrical line to 
the most rural community in Readsboro or Hartland or why are 
you putting a post office in a remote community.
    The reason we did it was because we are all in it together. 
We are all citizens. And if we are going to have enterprise 
that is going to, in your words, enrich the human condition, 
then the tool that is necessary to do that has to be available 
to anyone who wants to give that a shot. And actually, that 
sounds to me like a really good analogy, Senator Leahy, about 
what is at stake here.
    So I just want to thank you all, but I thought that was 
really, for me a very compelling sort of framework.
    Now, I will ask each of you a question. Mr. Copps, thank 
you for your testimony. On a practical level, what I heard you 
say is you think the FCC made a mistake in the Powell era in 
not putting this in Title 2.
    That is going to be a challenge. Mr. Wheeler, when he was 
in our committee, indicated that even though he is opening up 
this rule, he is solidly in support of Net neutrality, as we 
would define it.
    But the question is, there are some folks who do not like 
regulation for bad reasons, some who do not like--with 
regulation, you can overdo it.
    The issue that they are starting to raise is whether or not 
it would absolutely be necessary as a condition of maintaining 
that neutrality that it be in Title 2, where there is some 
potential in the minds of some that that would actually stifle 
some innovation.
    So the goal here is Net neutrality. Are there different 
ways in which that could be achieved?
    Mr. Copps. Well, let us keep in mind, first of all, that 
right now, the way things stand since the D.C. court threw out 
the Net neutrality rules, there is nothing, zero regulation to 
prevent any large provider from blocking, degrading or speeding 
up its affiliates Internet transmission.
    So we start out not overly regulated. We start off with no 
regulation. Yes, it is not, in my mind, so much a question of 
how we are going to regulate it, but whether we are going to 
regulate it, and I think the only way you get to, yes, we are 
is through Title 2, because that is the only one on the final 
analysis, I think, that has a chance of withstanding court 
scrutiny.
    Once we have that weather, then, yes, of course, we can 
look at--if you want to call it late touch Title 2 regulation 
or whatever. Nobody is saying that your computer is the same as 
an old crank telephone in plain old telephone service days back 
in the 1930s or the 1940s. Of course, this is different.
    But we have the authority under Title 2 to forebear us from 
many of those regulations of plain old telephone service or to 
craft new regulations that are precisely aimed at this high 
tech.
    Representative Welch. Or could there just be legislation 
that made it--prohibited a deviation from Net neutrality, 
maintaining access for rural as well as small users, rural 
users as well as----
    Mr. Copps. Well, I think legislation always helps, but I 
think the action right now, although I think the Congress can 
have a tremendous impact on the FCC through its oversight 
responsibilities, but the action is between now and the end of 
the year at the FCC and what Mr. Wheeler and whatever majority 
he can cobble together vote. It is going to be mighty hard to 
undo 2, 3, 4 years down the line once these gatekeepers have 
further consolidated their power and further enhance their 
gatekeeping authority.
    Representative Welch. Thank you.
    Ms. Reid, has the access and availability of high-speed 
Internet in our libraries increased the traffic of young 
people, in particular, to our libraries?
    Ms. Reid. It is interesting. It can be hard to track that. 
Where we can track the number of books that get checked out of 
the library, the number of people that walk through the door, 
the number of people that are logging on or downloading 
content, like an e-book or an e-audio book is a little bit 
harder to track or the number of people that are using wi-fi. 
That number is really increasing.
    We see lots of people bringing in their tablets or laptops 
to use that wi-fi connection and the numbers are tough to come 
by.
    Young people, I think, for sure, I think the more services 
that we can put on mobile devices, the more attraction we will 
have for young people. Public libraries are doing programming 
for teens in libraries using Wiis and all kinds of technology.
    The maker space movement in libraries is a big deal these 
days, so that people are coming in, using libraries for 
learning opportunities that--where there is not even a book 
around. It is all technology.
    Representative Welch. They just had a maker space event at 
the White House I think about a week or 2 weeks ago.
    Ms. Reid. I had not heard that. That is great.
    Representative Welch. Well, thank you.
    And I am going to ask you, Ms. Groeneveld, you had said 
something that indicated that even if the second tier speed was 
pretty good, consumers notice the difference. So it is not a 
question of whether you are pretty good, pretty good is not 
good enough. Is that more or less what you are saying, that the 
perception of the user of the Internet is to go for the higher 
speed if you comparatively are slower, even though it is really 
fast, that is not good enough.
    So I just want you to elaborate on that, because that seems 
to be the very practical challenge that a business would face, 
and you have got the experience.
    Ms. Groeneveld. I will use the analogy of the highway and 
it is almost as if you are driving down that two-lane highway 
and everyone is going 55, you feel pretty happy until someone 
builds their own lane and they can go 100.
    You are not going any slower. You cannot get into the lane 
going 100. It feels slower. That speed is relative. People will 
leave your site if it just feels slower to them in relation to 
another site that might feel faster, and that is the inequity 
that Logic Supply wants to avoid with fast lanes.
    Representative Welch. So you are willing to compete on your 
product and then, of course,. there is the whole thing about 
designing your Website to make it user-friendly. That is your 
burden. But you want, when you are on the Internet, your speed 
to be as fast as your $20 billion competitor.
    Ms. Groeneveld. Right. If you do not want your customer to 
be making judgments about the value of your product or service 
in a realm outside of your control.
    Of course, as I mentioned earlier to Senator Leahy, Logic 
Supply would absolutely, under duress, pay for fast lanes, but 
it would pervert the--it would pervert our ability to give 
value-added services to our customer.
    Representative Welch. Let me ask about that, too. You would 
if you had to because it is a survival issue and you do not 
have any choice.
    Ms. Groeneveld. Yes.
    Representative Welch. So you would do that. But then you 
are just put in a squeeze in that situation. I mean, you are 
paying because you have to, not because you are getting more 
value.
    Ms. Groeneveld. Certainly not the business and certainly 
not the consumer. No one benefits from it. Practically and 
technically speaking, no one really benefits from it.
    Representative Welch. Mr. Orton, the story of Vermont 
Country Store, it has no business existing, right? You are in 
tiny little Weston. But you had the Post Office, you had 
electricity, and you had the interstate, and now you have the 
Internet.
    All those were public goods, publicly created, and then you 
had your grandparents, parents, and you with your brothers, and 
you are making it work, which is a pretty astonishing story.
    But just the same question I had for Lisa. What would 
happen to you if there was a fast lane/slow lane situation?
    Mr. Orton. On the surface, it sounds reasonable and logical 
that you pay more, you get faster service. When it is 
formalized, it becomes a gameable, leverageable opportunity for 
the biggest players. And what really concerns us is that 
incremental rates of speed are always relative, from the 
customers' perspective, from all of our perspective. And we are 
spending a lot of time talking about desktop Websites here, but 
so far nobody has mentioned mobile.
    For retailers like us, that is the future. Mobile devices 
are even more of a limited window into the Internet from the 
customer's perspective than desktop. Speed is even more of a 
critical component of their experience.
    So every fractional delay in downloading a site or 
downloading content between two choices always, always means 
that the customer will wind up going with the faster, easier 
choice.
    Put another way, abandonment is death for a small Website. 
I will relate an anecdote, because it is still strikes me as 
so--it is emblematic of everything about change in the Web, the 
technology.
    A few years ago we noticed something really odd. There was 
a huge purchasing spike taking place at 10 at night and it was 
coming from customers with iPads and they were buying the kinds 
of things that normally would be purchased by customers who 
would use the catalog or even write in a mail form, a paper 
form. It was odd. And we realized that it is all our mothers 
and grandmothers who got an iPad for Christmas.
    [Laughter.]
    Mr. Orton. It was their first computer ever, their first e-
mail ever, the first time they ever shared photos of their 
grandkids on Facebook, and they were in bed, 10 at night with 
the iPad instead of the book next to the bed or a stack of 
catalogs, and the world changed.
    Representative Welch. Well, thank you all very much. Thank 
you.
    Chairman Leahy. I want to thank you all, too. This actually 
has been fascinating, more so than--usually, the hearings we 
have in Washington, every Member of the Committee is supposed 
to be on four different committees, as Commissioner Copps 
remembers from his days in the Senate, and so you cannot pay 
attention.
    This has actually been enjoyable and not all hearings are. 
I do not ever let that word get out. But I thank you all.
    I will keep the record open for a week for further 
testimony, and you will get copies of your testimony if you 
wanted to add to it or subtract from it, you can.
    I also want to thank the University of Vermont for hosting 
this hearing--it is nice to have a nice place like this for 
it--and Jeff Couture from the Vermont Tech Alliance for the 
input he and his members gave me in putting this hearing 
together, my staff from both Vermont and Washington who worked 
hard on this, Champlain College with insights its faculty 
provided, and I especially want to thank my good friend, Peter 
Welch, for taking the time to be here, because it is 
interesting coming from a state like ours, people actually will 
listen, and your testimony has helped.
    So, Peter, thank you. And all of you, thank you very much. 
We will stand in recess.
    [Whereupon, at 11:10 a.m., the hearing was concluded.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
